<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                     Arlington, VA.
    The subcommittee met at 1:54 p.m., at the Arlington 
National Cemetery Welcome Center, Hon. Jerry Moran (chairman) 
presiding.
    Present: Senators Moran and Schatz.

  ARLINGTON NATIONAL CEMETERY: CURRENT OPERATIONS AND FUTURE PLANS TO 
                            HONOR THE FALLEN

STATEMENT OF KAREN DURHAM-AGUILERA, SES, EXECUTIVE 
            DIRECTOR, ARMY NATIONAL MILITARY 
            CEMETERIES, DEPARTMENT OF THE ARMY
ACCOMPANIED BY: KATHARINE KELLEY, SES, SUPERINTENDENT, ARLINGTON 
            NATIONAL CEMETERY, DEPARTMENT OF THE ARMY


                opening statement of senator jerry moran


    Senator Moran. Good afternoon, everyone. I am Jerry Moran 
and I happen to have the honor of chairing the Appropriations 
Subcommittee on Military Construction, Veterans Affairs, and 
Related Agencies. And I am pleased to be joined by the ranking 
member. And I will officially call this hearing--this may be a 
historic moment in which a congressional hearing is beginning 
earlier than the time it was scheduled, but we will begin, and 
I now call this subcommittee hearing to order.
    It is an honor for us to be here at Arlington National 
Cemetery, and we look forward to hearing from our witnesses so 
that we can be very knowledgeable and be helpful to those who 
are interred here, and their families. We want this place to be 
of value to the Nation and to its service men and women for 
years to come.
    Thank you to our witnesses, the executive director and the 
superintendent, for hosting us today. Thank you for all of the 
arrangements that you have made.
    Arlington is clearly one of the most important treasures 
the United States of America has. Citizens are always 
respectful of Arlington National Cemetery, and it is a 
wonderful place for us to come learn about American history and 
our traditions and our customs.
    We can never forget, however, that this is also an active 
cemetery. That has been its primary purpose for more than 150 
years. This is a place for family and friends, for mourning and 
grieving and for remembrances. It is a sacred place.
    The cemetery has come a long way in the last several years. 
We notice that. We appreciate that. You have spent tremendous 
time and energy in upgrading and repairing the infrastructure, 
the IT system, reorganizing and restructuring maintenance, and 
improving security and pedestrian flow around the cemetery.
    You have also made this place more accessible and welcoming 
to all who visit.
    You and your team have accomplished a great deal in a short 
amount of time, and I personally want to thank you. Thank you 
on behalf of the American people for the efforts that we see 
having occurred here.
    The past is important, but we also want to consider the 
future of the cemetery. As chairman, I welcome the 
responsibility of helping preserve and protect Arlington and 
ensuring for as long as possible that this ground is open and 
active for burial and interment of those who have served us 
all, those we know as our American heroes.
    I know that there are issues. There are land issues and 
budget issues. There are space issues, things we have to work 
through, and I look forward to discussing those with you today. 
I look forward to working with you closely to ensure that the 
perpetual success of this hallowed ground continues.
    I am honored to be joined, as I said, by the ranking 
member, Senator Schatz from Hawaii. And we are pleased that our 
first subcommittee hearing in this capacity is taking place at 
Arlington National Cemetery with a focus on those who served 
us. And I now recognize the Senator from Hawaii.


               opening statement of senator brian schatz


    Senator Schatz. Thank you, Chairman Moran. Thank you to our 
great bipartisan staffers for helping put this hearing 
together. Thank you to everybody who worked to put together 
today's hearing.
    I appreciate, Chairman, your holding this subcommittee's 
first hearing on such an important topic in such a venerated 
location. I am honored to serve as the ranking member of the 
subcommittee, and I am looking forward to partnering with you 
and our members in the coming weeks and months as we tackle the 
crucial military construction, veterans, and related funding 
issues facing our country.
    Director and Superintendent, thank you for hosting this 
hearing and for your dedicated service to our military 
personnel and veterans. Yours is a solemn duty to lay to rest 
those who have served our Nation in the military forces, 
including so many who have sacrificed their lives fighting for 
freedom.
    Arlington Cemetery is the crown jewel to pay tribute to the 
Nation's military forces, and our job is to ensure that it 
remains an

[[Page 3]]

active cemetery for generations to come. I recognize that the 
cemetery as it now exists is fast approaching capacity, and we 
look forward to your suggestions for the expansion of the 
property and other initiatives to extend the capacity.
    As you are aware, this subcommittee has been very 
supportive of the cemetery and its mission over the last 
several years. This includes fully funding the Millennium 
Project in fiscal 2013, which was the first major expansion of 
the cemetery since 1976. I understand the Millennium Project 
will be available for services late this summer, and I look 
forward to hearing your plans for utilizing the space.
    Also, in 2015, the subcommittee provided $30 million in 
Defense Access Road funding to realign a portion of Columbia 
Pike to maximize future utilization of the proposed Southern 
Expansion. We are eager to do whatever we can to assist ANC in 
its efforts to implement the Southern Expansion.
    I look forward to working with both of you and with the 
chairman to achieve that goal.
    So thank you to the chairman for hosting this hearing, and 
we look forward to the testimony.
    Senator Moran. Senator Schatz, thank you very much.
    We will turn to our witnesses. I recognize and ask her to 
complete her testimony, Karen Durham-Aguilera. Thank you very 
much.


               summary statement of karen durham-aguilera


    Ms. Durham-Aguilera. Thank you, Chairman Moran and Senator 
Schatz. Before we get started, we are going to introduce a few 
others on our team.
    Senator Moran. Great.
    Ms. Kelley. Senator, behind me to my right is Colonel Mike 
Peloquin. He is the chief of our Engineering Division here at 
Arlington, very instrumental to some of the things that we are 
going to talk about today.
    And also to my left behind me is Ms. Yates. Renea Yates is 
our deputy superintendent for administration at the cemetery, 
very instrumental in all the support to families and services 
each and every day.
    Senator Moran. Thank you.
    Ms. Kelley. Thank you.
    Senator Moran. Can you all hear us? Are we good on volume? 
Thank you. I know I was quiet in my remarks. It is just the 
nature of being at Arlington National Cemetery. I will step up 
my volume to make certain that I am heard.
    Ms. Durham-Aguilera. Chairman Moran, Ranking Member Schatz, 
and distinguished members of the subcommittee, thank you for 
the opportunity to update you on the current operations and 
future plans to honor the fallen at Arlington National 
Cemetery. With me today is Ms. Katharine Kelley, the 
superintendent of Arlington National Cemetery.
    On behalf of our dedicated military and civilian 
professional work force and the Department of the Army, we 
appreciate our citizens and the support provided by Congress.
    About 3 months ago, I was honored to be appointed as the 
executive director of Army National Military Cemeteries. In 
this position, I am committed to ensure that those individuals 
in the armed services who made a significant commitment to the 
defense of our Nation are laid to rest with dignity and honor. 
As the executive director, I am committed to maintaining burial 
accountability, management of our maintenance, fiscal 
stewardship, and the preservation of future burial space at the 
cemetery.
    We are confident in our ability to manage the challenges at 
Arlington National Cemetery. Our daily mission is threefold: to 
lay to rest on behalf of the American people those who have 
served our Nation, while treating their surviving families with 
respect and compassion; to connect our guests to the rich 
tapestry of the cemetery's living history; and to maintain 
these hallowed grounds in a manner befitting the sacrifice of 
those who rest here in quiet repose.
    The Army remains committed to maintaining Arlington 
National Cemetery as the Nation's premier military cemetery and 
national shrine well into the future. We have a high burial 
pace. We conduct between 27 and 30 services each weekday and 
approximately 10 services on Saturday.
    During fiscal year 2016, we interred or inurned 7,140 
servicemembers, veterans, and eligible family members. In terms 
of operational expansion, the Millennium Project adds nearly 
28,000 burial opportunities, bringing Arlington National 
Cemetery's projected capacity for first interments to 
approximately the year 2041. We expect to begin using the site 
in the fall of 2017.
    The Southern Expansion project continues to move forward 
through the planning stage, which formally began in 2016 with 
funding of the Defense Access Road project. We will continue to 
engage Arlington County and the Commonwealth of Virginia 
regarding the land acquisitions needed for these projects to 
proceed.
    In the last year, visitors have noticed a change at 
Arlington National Cemetery. Family, visitor, and employee 
safety are one of our highest priorities. We have implemented 
enhanced visitor screening measures in a deliberate manner to 
protect persons and property while minimizing the impact on 
funeral services and the visitor experience.
    We continue to operate with resourcing capped by the 
Bipartisan Budget Act and Budget Control Act at fiscal year 
2011 levels. These levels are now straining our ability to keep 
up with current demands as we have absorbed civilian pay 
increases, annual contract inflation, and implemented must-fund 
new requirements, such as new security measures.
    We need your assistance to address this capability gap.
    As a steward of this national shrine, the Army is committed 
to maintaining Arlington National Cemetery as an active 
cemetery and extending its legacy for as long as possible. 
Unfortunately, without changes to the current footprint and/or 
eligibility policies, Arlington National Cemetery will not be a 
burial option for most servicemembers who served in the Gulf 
War and in any conflict afterward, regardless of their 
contributions, achievements, or valor.
    The Army anticipates a robust and candid dialogue with 
stakeholders as we move forward, working together, to achieve a 
long future that continues to honor our Nation's servicemembers 
and veterans.
    The Army will continue to sustain the sacred trust of the 
American people. As we stated in our recently submitted report 
to Congress on capacity and eligibility at Arlington National 
Cemetery, we look forward to working with Congress, the 
Advisory Committee on Arlington National Cemetery, military 
service organizations, veterans service organizations, and the 
American public on defining the future of Arlington National 
Cemetery. Together, we will review eligibility criteria, 
expanding our borders beyond our current boundaries, and other 
solutions to ensure the cemetery remains an active burial place 
for our Nation's heroes for generations to come.
    Mr. Chairman, this concludes my statement.
    Ms. Kelley, my team, and I will be pleased to respond to 
any questions you may have. Thank you.
    [The statement follows:]
              Prepared Statement of Karen Durham-Aguilera
                              introduction
    Chairman Moran, Ranking Member Schatz, and distinguished members of 
the Subcommittee, thank you for the opportunity to provide an update on 
Arlington National Cemetery. Arlington National Cemetery is a unique 
and iconic place devoted to honoring those individuals in the armed 
services who made a significant commitment of service to the defense of 
our nation. Today, the cemetery conducts between 27 and 30 funeral 
services each weekday and approximately 10 services on Saturday. In 
fiscal year 2016, Arlington National Cemetery served more than 7,100 
active duty service members, veterans and their family members. We work 
diligently to maintain the honor and dignity of each graveside service. 
Arlington National Cemetery also annually hosts approximately 4 million 
guests, bringing the sacrifices of those buried at Arlington National 
Cemetery closer to the American people. On behalf of the cemetery and 
the Department of the Army, I express our appreciation to our citizens 
and for the support provided by Congress over these many years.
                the state of arlington national cemetery
    Arlington National Cemetery's enduring mission is to provide a 
dignified and honorable final resting place for active duty service 
members, eligible veterans, and their families. Our daily mission is 
threefold: to lay to rest--on behalf of the American people those who 
have served our nation while treating their surviving families with 
respect and compassion; to connect our guests to the rich tapestry of 
the cemetery's living history; and to maintain these hallowed grounds 
befitting the sacrifice of those who rest here in quiet repose. We 
envision a future Arlington National Cemetery that continues to honor a 
commitment to service well beyond the next few decades; the Army 
recognizes that the nation is at a critical point in the cemetery's 
history. As of today, the cemetery cannot achieve that future without 
physical expansions and/or changes to eligibility. Current projections 
show Arlington National Cemetery will reach maximum capacity in the 
early 2040s. This means that a veteran from the 1991 Gulf War who lives 
to his or her normal life expectancy will not have the choice to be 
interred at Arlington.
                 master planning and southern expansion
    The Army remains committed to maintaining Arlington National 
Cemetery as the nation's premier military cemetery and national shrine 
in perpetuity. We are also committed to actively serving and honoring 
our nation's veterans and their families for as long as possible. The 
Secretary of the Army's recent report to Congress discusses how spatial 
constraints limit the life of Arlington as an active cemetery and 
discusses the difficult topics of eligibility and expansion.
    In terms of operational expansion, the Millennium Project adds 
nearly 28 thousand burial opportunities, bringing Arlington National 
Cemetery's projected capacity for first interments to 2041. The project 
remains within budget and though the bulk of the construction is 
complete, significant landscaping elements remain to ensure the look 
and feel are on par with the remainder of the cemetery. We expect to 
start using this site in the August 2017 timeframe.
    The second major expansion opportunity, the Southern Expansion 
project, continues to move through the planning stage, which formally 
began in 2014. Initial planning led to the development of a Defense 
Access Road project to realign Columbia Pike and increase the 
contiguous land for the Cemetery. The Defense Access Road project was 
funded in 2016, with Federal Highways Administration supporting these 
efforts, and project planning continues to move forward in close 
coordination with Arlington County and the Virginia Department of 
Transportation. We will continue to engage the County and Commonwealth 
of Virginia regarding the land acquisitions needed for these projects 
to proceed.
    The environmental assessment for the Defense Access Road project as 
well as the Southern Expansion project, required under the National 
Environmental Policy Act, has been drafted and initially reviewed by 
the agencies participating in these two projects. Based on the outcome 
of the land acquisition discussions, the environmental assessment will 
be finalized and released for public comment. Organizations 
participating in the National Environmental Protection Act process 
include the Federal Highway Administration, the Environmental 
Protection Agency, Arlington County, the Virginia Department of 
Transportation and the National Capital Planning Commission. Based on 
current projects timelines, we do not anticipate this parcel of land 
being ready for burials before 2023. Initial planning estimates for the 
project indicate that with the current eligibility criteria, the 
Southern Expansion project would provide Arlington National Cemetery 
first interment capacity until the early 2050s.
    In addition to expansion projects, Arlington National Cemetery 
continues to make progress modernizing much of its infrastructure. 
Significant problems with waterlines have been reduced dramatically, 
and the worst storm water lines have been repaired or replaced. We have 
rebuilt the roads that were in the worst condition. Electrical 
utilities have been privatized to reduce long-term cost, and 
significant portions of that infrastructure replaced with more 
dependable and resilient systems. Much of our office space has been 
renovated or will be in the coming years to provide a safer and more 
effective work environment. Our investment in operational requirements, 
to include needed improvements of queuing facilities for funeral 
processions and material storage and handling facilities supporting 
cemetery operations, will ensure a high level of service for all who 
come to Arlington. The construction of the new Tomb of Remembrance, due 
to be put into service this spring, provides our nation a dignified 
place for the final disposition of cremated remains that may be 
comingled or unidentified.
    Though the worst of the prior infrastructure problems have been or 
are being solved, we continue to develop and implement an adaptable 
capital investment strategy to ensure previously neglected 
infrastructure does again not reach the prior state of disrepair. For 
example, the sanitary sewer lines, which had not previously needed a 
major overhaul, experienced multiple breaks in the last year leading to 
facility closures and damages. We reprioritized these projects so we 
could accomplish these critical repairs. These instances illustrate 
Arlington National Cemetery's need for our continued monitoring and 
investment to assure our ability to address infrastructure 
deficiencies.
    In support of improving the infrastructure, we have initiated the 
process of reviewing and revising our Master Plan. The last version of 
the Arlington National Cemetery Master Plan was completed in 2013, with 
some minor revisions in 2014. In addition to the traditional 
infrastructure and land use aspects of the Master Plan, we will focus 
on the infrastructure needed to support our enhanced security 
requirements. We must balance the obligation we have to support our 
veterans and visitors along with our duty to keep them safe while they 
are here at Arlington National Cemetery. We expect to conduct the next 
phase of the Master Plan and have a draft document ready in late 2017 
for review and coordination with stakeholder agencies to include the 
National Park Service, National Capitol Planning Commission, and the 
U.S. Commission of Fine Arts who share an interest in Arlington 
National Cemetery's future.
                      enhancing security measures
    The Army and ANC take family, visitor, and employee safety very 
seriously. In response to a 2015 U.S. Northern Command directive, 
Arlington National Cemetery implemented enhanced visitor screening 
measures in a deliberate and phased approach to minimize inconvenience 
to those entering the cemetery. We work closely with our partners at 
Joint Base Myer--Henderson Hall, who have the responsibility for law 
enforcement and security on Arlington National Cemetery. We initiated a 
robust public information campaign ahead of implementing these security 
measures. As part of this campaign we held town hall style meetings 
with local and regional tour professionals, sent information to various 
family and veteran service organizations, and engaged with various 
media outlets to ensure the widest dissemination of the changes and the 
timelines for these measures.
    This phased implementation was a collaborative Army solution to 
meet the larger intent of U.S. Northern Command executed in keeping 
with the national shrine that is Arlington National Cemetery. All the 
security measures acting together, to include visitor screening and 
driver's license checks are designed to create a more secure 
environment versus relying solely on one means. The enhanced screening 
was implemented during a period of low visitation in order to ensure 
the policies and practices were well vetted before our season of 
significant visitation and funeral activity. We have monitored the 
implementation closely and are constantly making improvements to ensure 
we maintain an environment that both enhances security while minimizing 
the impact on the visitor experience.
                   resource and budget considerations
    Arlington National Cemetery's budget consists of funding for 
categories of: Infrastructure Modernization; Plan and Design; and 
Operations and Maintenance. The Infrastructure Modernization funding 
appears adequate to continue our efforts to repair aging roads, 
utilities, buildings and develop a sustainment program. The Plan and 
Design funding appears adequate to continue developing plans for the 
proposed Southern Expansion project. Arlington National Cemetery's 
Operations and Maintenance budget is capped by the Bi-Partisan Budget 
Act and Budget Control Act at fiscal year 2011 levels. Arlington 
National Cemetery cannot continue to absorb civilian pay increases, 
annual contract inflation, and implement must-fund new requirements 
such as the new security measures. In the past, we used hire lag to 
cover increases in civilian pay and contract inflation, as well as 
emerging, minor requirements. We have increased our hiring over the 
past 2 years to achieve authorized end strength levels needed to 
accommodate the sustained demand for veterans' services; we no longer 
have flexibility to absorb these increased Operations and Maintenance 
costs and will need your support for the resources requested in our 
budget to address this capability gap.
    Since Arlington National Cemetery's Operations and Maintenance 
budget was capped at fiscal year 2011 levels, Arlington National 
Cemetery has absorbed five civilian pay increases totaling $1.3 million 
and contract inflation costs of $2.9 million associated with our 28 
annual contracts that we rely upon to maintain the Cemetery to National 
Shrine standards. In addition, Arlington National Cemetery has funded 
these newly imposed requirements associated with the U.S. Northern 
Command and Army mandated enhanced security with a contract costing 
$3.5 million annually and will fund $200,000 cost increases to annual 
contracts required when the new Millennium expansion site is put into 
service.
    Arlington National Cemetery currently has 173 civilians on board 
with 27 hiring actions at the Civilian Personnel Advisory Center that 
are exempt from the hiring freeze; this will bring our personnel fill 
to essentially 100 percent of current authorizations. We have an 
additional 17 positions the Army acknowledges are required to sustain 
the demand for services. Most of these positions are in the Cemetery 
Representative workforce and in the Information Technology field. We 
have used Operations and Maintenance funds in the past to augment these 
sections with over hires, but lack available funds to sustain this 
practice.
                         future of the cemetery
    Arlington National Cemetery is proud to honor our country's rich 
history and the generations of men and women willing to sacrifice their 
lives in defense of our nation. During its 152 year history, nearly 
400,000 people have been honorably interred or inurned at the cemetery, 
including heroes from every major U.S. conflict. As the steward of this 
national shrine, the Army is committed to maintaining Arlington 
National Cemetery as an active cemetery and extending its legacy for as 
long as possible. Unfortunately, without changes to the current 
footprint and/or eligibility policies, Arlington National Cemetery will 
not be a burial option for most service members who served in the Gulf 
War--or any conflict since--regardless of their contribution, 
achievements, fame, or valor. Extending Arlington National Cemetery as 
an active cemetery well into the future requires decisions and adequate 
resourcing. As discussed in the Secretary of the Army's recent report 
to Congress, key options to consider include redefining eligibility 
criteria for interment and inurnment, considerations for additional 
expansion opportunities beyond current boundaries of the Cemetery and 
evaluating alternative ideas for maximizing the current space within 
the Cemetery's geographic footprint. The Army anticipates a robust and 
candid dialogue with stakeholders as we move forward, working together, 
to achieve a long future that continues to honor our nation's cherished 
defenders.
                               conclusion
    Enabled by the support of Congress and through the diligent efforts 
by the Arlington National Cemetery staff, the Army will continue to 
sustain the sacred trust of the American people. We look forward to 
working with Congress, the Advisory Committee on Arlington National 
Cemetery, military service organizations, veteran service 
organizations, and the American public on defining the future of 
Arlington National Cemetery as we review eligibility criteria, 
expanding beyond our current borders and other solutions to ensure the 
cemetery remains an active burial place for our nation's heroes for 
generations to come. The Army's recent report to Congress identifies 
all factors, including detailed cost estimates that would need to be 
evaluated in considering extending Arlington National Cemetery beyond 
the ``early 2050s''. The Administration looks forward to working with 
the Congress to address these difficult issues.

    Senator Moran. Thank you very much for your testimony.

                        ANC BUDGET AND STAFFING

    I think I will start with the budget issues, as 
appropriators.
    Let me first take this opportunity to say it appears to me 
that we are on a path to not having another continuing 
resolution and that fiscal year 2017 appropriations bills will 
be packaged in the Senate. A defense appropriations bill has 
come over from the House. We passed our military construction, 
VA bill last year, so that would leave 10 bills for fiscal year 
2017.
    Every effort is being made, and it seems in a successful 
way, that we will be able to avoid a continuing resolution and 
will, therefore, perhaps get out of the business of simply 
flatlining and failure to prioritize appropriation requests.
    So we will know this in the next few weeks. You would know 
the current funding as appropriated is authorized through April 
28th, and the expectation is that, in April, we will pass the 
defense appropriations bill with 10 additional appropriations 
bills attached.
    That would be good news for all of us in Appropriations but 
also all the agencies and departments that are affected by 
continuing resolutions.
    Let me ask you, generally, your budget has been steady. In 
fiscal year 2016, there was an $8 million addition. Tell me in 
more specific ways than what your testimony indicated, what are 
the consequences of having basically flatline funding?
    Ms. Durham-Aguilera. Thank you, Senator. There are several 
things.
    We have absorbed, as I mentioned, five civilian pay 
increases, the annual contract cost of inflation for all the 
ongoing maintenance of the cemetery. This fall, we will put the 
Millennium new site into operation. That comes with an 
operation and maintenance cost as well, plus the annual cost to 
be able to use that site. And then last year, we implemented 
the new security measures, which we also absorbed into our 
baseline budget.
    For the last several years, as this budget has been capped, 
we have been managing to sustain this high optempo, largely 
through hiring lag of our people, but we have made great 
progress in that regard. And this year, we expect to be, for 
the first time, at full authorization of our personnel. Now, 
those are the ones that are

[[Page 6]]

authorized. It is not the additional requirements that are 
required but not resourced at this time.
    So after this year, we will no longer have the flexibility 
we have had in the past to continue to absorb new requirements 
as well as to accommodate emergency repairs, such as the 
emergency sewer line and water repairs and the worst of the 
road repairs that we have accomplished in the last few years.
    Senator Moran. Tell me what the authorized level is for the 
number of employees.
    Ms. Durham-Aguilera. It is 201.
    Senator Moran. And how many are on the payroll today?
    Ms. Durham-Aguilera. Right now, we are 27 short of that, 
but we were able to gain approval under the hiring freeze to go 
ahead and proceed with those positions, so we are in the 
process right now of finishing up more of those recruitments.
    But we also have additional requirements, especially for 
cemetery representatives and for our field operations that are 
not resourced at this time that we will be looking forward to 
in the next year or so.
    Senator Moran. Have you been exempted from the hiring 
freeze or just in part?
    Ms. Durham-Aguilera. In part. The Department of Defense did 
have several exemptions in place that included those who took 
care of veterans at the cemeteries. So for the positions that 
were authorized, we were able to gain approval for most of 
them, particularly our security guards, our cemetery 
representatives. These are the folks that the families call to 
schedule and then conduct burial services, and then our field 
operations, our incredible professionals that take care of 
these grounds and the burial places each and every day.
    So under the Department of Defense, we were able to get an 
approval to exempt those positions and to move out. We continue 
to recruit and fill them.

            INFRASTRUCTURE SPENDING AND DEFERRED MAINTENANCE

    Senator Moran. Ms. Kelley, tell me about how the $8 million 
was spent.
    Ms. Kelley. Absolutely. Senator, the $8 million did two 
very important things for us. It allowed us to do the planning 
and design we need to continue to make progress on our 
infrastructure requirements.
    You talked about the past. As you know, the past was a lot 
of deferred maintenance at the cemetery. So that has allowed us 
to put plans in place to be essentially project-ready for such 
time as funds become available.
    Senator Moran. So none of the money was used for the actual 
deferred maintenance, but it was used in preparation to address 
the deferred maintenance problems.
    Ms. Kelley. Much of it was, however, last year, we had some 
substantial emergency repairs that happened, namely our sewer 
lines in this very building that we are in. And so we used some 
of that money to take care of a very dramatic and unexpected 
infrastructure requirement for that as well.
    We have basically repositioned ourselves for infrastructure 
repairs and utilized it for immediate needs.
    Senator Moran. Emergencies.

[[Page 7]]

    Ms. Kelley. Yes. Absolutely.
    Senator Moran. And then tell me in more detail about the 
deferred maintenance. What would be on that list?
    Ms. Kelley. We have to continue to do the things we have 
been doing, primarily resurfacing our roadways. We have a 
substantial road network here at the cemetery. We have only 
started that process, and we have some significant miles to 
still go, in terms of redoing that surfacing.
    That is really important for our funeral services, quite 
frankly. It is not just an aesthetics but an operational need 
here at the cemetery.
    We have entirely learned how desperate our sewer lines are 
here as well, from our experience this past year.
    And, quite frankly, we also have to now turn our attention 
to the support that our cultural resources require. We have 
very substantial aging and historic architecture here that 
needs all sorts of attention that takes very specialized skill 
in order to repair and maintain. So we have a very substantive 
project planning process to allow us to identify those needs.
    Senator Moran. Thank you both very much. Let me turn to my 
colleague, Senator Schatz.
    Senator Schatz. Thank you.

                       HIRING FREEZE AND STAFFING

    Ms. Durham-Aguilera, in terms of the personnel 
requirements, you have an exemption from DOD from the hiring 
freeze. You said you had 27 unfilled positions and some of 
those were exempted from the hiring freeze, some not.
    Ms. Durham-Aguilera. No, all 27 were exempted from the 
hiring freeze.
    Senator Schatz. Okay.
    Ms. Durham-Aguilera. There are a few other positions in 
addition to those, but the ones that we asked for that fell 
into the DOD exemption, mostly our field operations, our 
cemetery representatives, we did get the approval to proceed to 
recruit and fill those positions, and our security guards.
    Senator Schatz. And on the personnel side, do you have 
unmet requirements in addition to this 27?
    Ms. Durham-Aguilera. We do. We have requirements that have 
been identified but not currently resourced. Most of those, 
again, are with the cemetery representatives and additional 
security guards and some of the other positions here as well.
    Senator Schatz. Okay.

                 INFRASTRUCTURE AND CAPITAL MASTER PLAN

    Ms. Kelley, on infrastructure, I understand you are 
implementing what you are calling an adaptable capital 
investment strategy. Can you explain what that is?
    Ms. Kelley. We are working on a master plan right now, 
which includes a couple elements for us. The master plan is 
looking at sequencing of our requirements as well as 
prioritization. Certainly, there is a difference between when, 
and then in what order.
    And then also, it looks at some of our security 
requirements. We have an annex to that master plan that will be 
giving us some additional ideas on what we can do to improve 
the security posture here.

[[Page 8]]

    Also, the capital investment strategy itself is a part of 
that process, and so that is going to inform how we make 
informed decisions about which projects to prioritize first.
    Senator Schatz. And that process is ongoing?
    Ms. Kelley. Yes, Senator, it is.
    Senator Schatz. So I guess the question becomes, for the 
purpose of the committee, how do we take advantage of the 
thinking that is going on while it is going on, as opposed to 
waiting for the capital investment strategy to be sort of made 
formal before we can respond to it and perhaps fund it?
    Ms. Durham-Aguilera. So if I may, a couple things on that.
    First, one of the things we are going to be doing this year 
is working with the Army on the requirements that we have 
identified that currently would not be covered in our current 
budgeting level, the cap level.
    The second thing is the master plan, we hope to have a 
draft this calendar year. We will have to be working with 
stakeholders as well as the Commission of Fine Arts, and the 
National Capital Planning Commission, and others on anything 
that is in that plan.
    So for this year, it would be the additional requirements 
that we do not believe we can continue to do under the current 
cap, and then the coming year will be the additional things we 
identify under that master plan.
    Senator Schatz. So by the time we come back around, say a 
year from now, we should have something that the committee 
could work with.
    Ms. Durham-Aguilera. Yes, we will have a draft of the plan 
that we will be out socializing and having dialogue with. 
Certainly, we could talk to the committees about what we have 
discovered, and we will be putting out that draft.
    Senator Schatz. Okay. And for either of you, in terms of 
dollar amounts, can you give us a rough cut of what the R&M 
backlog is.
    Ms. Durham-Aguilera. It is $115 million. Chairman Moran and 
Senator Schatz, if you would like, following this hearing, we 
can give you a project listing of what is in that $115 million 
backlog.
    Senator Schatz. Thank you.

           DEFENSE ACCESS ROAD AND SOUTHERN EXPANSION PROJECT

    Let's talk a little bit about the $30 million through the 
Defense Access Road, for the straightening of Columbia Pike. 
Maybe you could just give us a quick update on progress, 
negotiations, the rest of it.
    Ms. Kelley. Absolutely, Senator.
    The project is in good state at this point, from the 
perspective of stakeholder agreements. The straightening of 
Columbia Pike is a very dramatic improvement to the current 
alignment, plus the roadway is extremely aging and really 
cannot bear the load.
    So we have agreements with VDOT, the Virginia Department of 
Transportation, plus Arlington County. We also have agreements 
between, obviously, the Army, the Air Force, because of their 
equity where the monument is adjacent to Columbia Pike, and 
also, the Pentagon Force Protection Agency and the setback from 
the Pentagon.
    So we have primarily put the money in the hands of the 
Federal Highway Administration, who is actually executing the 
project on behalf of the Department of Defense. The Defense 
Access Road

[[Page 9]]

project is executed through that mechanism, and that money is 
obligated as such.
    And so we have just gone through the past NEPA process this 
year, and we are positioning ourselves to move forward into the 
next phase.
    Senator Schatz. Am I wrong in understanding that you may 
have agreements between VDOT and the city or county of 
Arlington and the Federal agency, but you do not have--it is 
not all worked out in terms of the land swap? Or do I need to 
be further updated?
    Ms. Durham-Aguilera. Thank you, Senator. So there are a few 
things.
    The initial phase of that that will lead to the Southern 
Expansion is straightening out Columbia Pike, basically 
straightening out the cloverleaf that is out there right now. 
That will allow us to move ahead with the Southern Expansion.
    Now the land acquisitions that we need for the Southern 
Expansion have not yet occurred. We are thankful for Congress 
passing the 2017 NDAA because the National Defense 
Authorization Act gave us flexibility and tools that we did not 
have before. And so shortly here, after we have basically done 
our homework, we will be ready to begin discussions with 
Arlington County and the Commonwealth of Virginia on the land 
acquisitions needed for the Southern Expansion.
    Senator Schatz. And if there is anything that we can do to 
precipitate agreement, I am sure we would be happy to assist, 
without big-footing any county or State Government.
    Ms. Kelley. Thank you.
    Ms. Durham-Aguilera. Thank you.
    Senator Moran. Thank you, Senator.

              CAPACITY REPORT AND CURRENT EXPANSION PLANS

    Senator Schatz's questions in part involved expansion. Put 
some meat on the bones about the need for expansion, the 
capacity. You indicated in the 2040s, veterans would no longer 
be able to further utilize the cemetery.
    Tell me what your plans are and how those are being 
developed.
    Ms. Durham-Aguilera. Thank you, Mr. Chairman.
    So as we relayed in our recent report to Congress, if there 
are no other changes on the footprint of the cemetery, and that 
is notwithstanding the Millennium expansion that is ongoing 
right now, we will no longer be able to do first interments, if 
there are no other changes, by 2041.
    Now the second interments, these are the same grave 
interments or inurnments by family members, will continue for 
an indeterminate number of years afterward.
    But for the first grave, if nothing else changes, we would 
no longer be able to do that after 2041. If the Southern 
Expansion occurs, which will give us another 40,000 to 60,000 
additional burial spaces, and no other changes are made, that 
will take us to around the year 2053, again, for first 
interments.
    How much further we can go beyond that will depend on if 
any changes are made to eligibility, and we gave numerous 
combinations of that in our recent report. And then it will 
also depend on if there can be any other further expansion to 
the Federal adjacent lands around Arlington National Cemetery.

[[Page 10]]

    Senator Moran. Let me make sure I understand. Explain to me 
the appropriations necessary for those two expansions to take 
place. What additional resources are required for the 
Millennium or the southern boundary?
    Ms. Durham-Aguilera. So we have everything we need for 
Millennium. It is ongoing right now. We will see it later on 
today. We will drive through there. And by this fall, we should 
be able to put that into operation.
    The Southern Expansion, we have the authority that we need 
to continue with land acquisitions. If there are other offsets 
because of the Defense Access Road, we may need support from 
Congress in that. And then when the time is right, we need the 
construction to be funded.
    Senator Moran. And what would you expect the construction 
to cost?
    Ms. Durham-Aguilera. I think it is somewhere around, rough 
estimate----
    Ms. Kelley. Right now, our planning estimate is $274 
million.
    Senator Moran. And at what point in time would that be a 
potential request?
    Ms. Durham-Aguilera. Probably the fiscal year 2020.
    Senator Moran. Okay.

                           PHYSICAL SECURITY

    Let me talk a minute about security. In fact, I had people 
that I met with in my office today. One indicated his father is 
buried here. He had been here to visit. He now goes through a 
metal detector. His last visit demonstrated to him that things 
were different. He was not complaining, it is just that now he 
has to go through a metal detector.
    He had the sense that security has significantly improved 
at Arlington National Cemetery. But I also know that you have a 
long perimeter and low fences, and I assume there are lots of 
entry points into Arlington National Cemetery besides those 
that a visitor would voluntarily come to and be screened.
    So what efforts are underway in additional security? And 
what do you think is required or necessary in the future?
    Ms. Kelley. Senator, we have implemented additional 
security screening, and it is as a result of a NORTHCOM 
directive to do so. We have done things that are almost exactly 
like what you would see at other museums, such as the 
Smithsonian or the Statue of Liberty. We have tried to mirror 
exactly that level of increased posture, and it is a new thing 
for Arlington.
    It also speaks to what the executive director was 
mentioning about our ability to absorb that new requirement.
    The security here is porous at this time. That is an 
absolutely true statement. But what we are doing as part of our 
master planning process is to include a security annex as part 
of that project development, so that we can identify if there 
are any additional things that we need to do.
    What we have done so far is introduce the screening 
mechanisms that you talked about. Those are basic screening 
mechanisms to preclude prohibited items from coming in. We also 
do a 100 percent driver vehicle ID check, so it is just 
checking for a driver's license.

[[Page 11]]

    So we are really doing things that are deterrents in nature 
and improving our capability to ensure that there are not 
weapons or things that we do not want on the cemetery.
    There are low walls around the cemetery, as you know. So 
part of our master planning process is going to help us 
identify what we can do about that, from a security 
perspective.
    However, the executive director and I feel very strongly 
that we need to find a balance to make sure that it does not 
take away from what Arlington is. We want to strike a balance 
that still allows this place to feel open and welcoming to all 
those who want to come.
    Senator Moran. Have there been events or occurrences or 
threats that cause you to worry, to realize that you need to do 
more?
    Ms. Kelley. I think we have had instances in the past that 
have certainly highlighted that this is a different world that 
we are living in right now. Certainly, the NORTHCOM directive 
was the impetus for our change. That is a result of things like 
the Fort Hood shooting and that nature.
    There are no known threats against the cemetery today, but 
I believe that we are taking prudent measures.
    Senator Moran. I do not think you mentioned in your 
response to me anything about cameras. Do cameras play a role 
here?
    Ms. Kelley. They do. Right now, we do have some cameras on 
Arlington National Cemetery. We are also in the process of 
updating the technology involved so that we have a more dynamic 
system. Right now, it is fairly static, so we are basically 
doing a refresh of our technology. That will include improving 
the span and control that we can see. So, yes, cameras are a 
part of that.
    Senator Moran. Okay.
    Ms. Durham-Aguilera. And if I may add, the other thing that 
we have on an ongoing basis, our team works with Joint Base 
Myer-Henderson Hall each and every day. They are responsible 
for law enforcement, so we have roving patrols. Anything that 
we need from a response and a preventative measure is provided 
by Joint Base Myer-Henderson Hall.
    We also have an active partnership with other law 
enforcement in this area, to include the National Park Police, 
the National Capital Police, and then the first responders are 
largely provided by Arlington County.
    So our teams do this coordination each and every day, so 
that helps a lot. But there are other areas that we know would 
be vulnerable that you have mentioned.
    Senator Moran. Let me make sure I understood what you just 
said.
    Is emergency response provided by the county?
    Ms. Durham-Aguilera. That is correct.
    Senator Moran. And you do not have your own, in a sense, 
law enforcement?
    Ms. Durham-Aguilera. We have our Department of Army 
security guards that you see when you enter here on the 
grounds. The law enforcement authority is under Joint Base 
Myer-Henderson Hall, and then they work in concert with other 
law enforcement in this area, should there be a response that 
is needed.

                   CHAIN OF COMMAND AND STAKEHOLDERS

[[Page 12]]

    Senator Moran. Ms. Aguilera, what is your chain of command? 
Who do you report to? Who influences the decisions in that 
process?
    Ms. Durham-Aguilera. So I report directly to the Secretary 
of the Army. My office is here, which is excellent because that 
way, I am here with the team. I go into the Pentagon as needed.
    As far as the influence, the Army issued General Order No. 
1 earlier this year. It is very specific as to what 
authorities, in terms of policy and jurisdictions, that I have 
as the executive director both here, which includes Arlington 
National Cemetery, the Old Soldiers' and Airmen's Home 
Cemetery, but then I also have an Army staff with all of the 
other Army cemeteries, and there are 40 of them at Army 
installations around the Nation.
    So I have a lot of--I hate to use the word ``latitude,'' 
but I have a great deal of ability to be able to assess and 
manage the program here at Arlington National Cemetery.
    Senator Moran. And groups, folks with interest in Arlington 
National Cemetery, who tries to get your attention or who gets 
your attention to influence the way you think about what goes 
on here?
    Ms. Durham-Aguilera. There are a myriad of groups.
    Senator Moran. Besides Congress.
    [Laughter.]
    Ms. Durham-Aguilera. This is a national shrine, and it is 
over 150 years old. We have 11,000 visitors a day, 3 million to 
4 million a year.
    I was so struck a couple weeks ago, the National Capital 
Region had a snow day. There are no snow days at Arlington 
National Cemetery.
    Our field operation crews literally spent the night so they 
could be up in the middle of the night and before daybreak 
clearing the roads. Our team called each and every family that 
had a service scheduled for that day. Sixty percent of the 
families wanted to go ahead and have those burial services, so 
that is what we did.
    When I say ``we,'' it is not just the team here at 
Arlington National Cemetery. It is the Army, the Air Force, the 
Navy, and the Marines, because they provide the honor guards 
and the escort for the veteran or their family members.
    But what really struck me, besides our normal day here at 
Arlington, we opened to the public at 11 o'clock. There was a 
crowd here at 9 o'clock, 10 o'clock and for the public coming 
in, the trams are not running in the snow. The only way you can 
get around is to walk. I was just so struck by the number of 
people that came here, regardless of the weather, regardless of 
having to make it a walking day.
    So people are going to come. People want to come and pay 
honor and dignity to the rich history that exists here as well 
as the 400,000 veterans and patriots who have earned their 
spot.
    So there are many groups that want to make sure--they would 
like to see further honors at Arlington National Cemetery. Our 
job is to find that balance and do it in a way that makes sense 
but also do it in a way that does not compete for existing and 
future burial space here at Arlington National Cemetery.
    Senator Moran. You make me feel guilty that our 
subcommittee did not meet on that snow day.

[[Page 13]]

    [Laughter.]
    Senator Moran. But let me say it was not our decision. 
Someone on a higher plane than we made the decision to 
postpone, although I would say that we postponed to a beautiful 
day.
    In addition to the testimony we are taking here, we are 
looking forward--we are here in part--we could have asked you 
to come to Capitol Hill, but we are here in large part because 
we also want to see for ourselves the things that you want to 
show us here at the cemetery.
    Ms. Durham-Aguilera. Thank you.
    Senator Moran. Let me turn to Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. I thought you were 
going to blame it on the guy from Hawaii.
    [Laughter.]
    Senator Schatz. Two quick questions.

                    OPERATIONS AND MAINTENANCE COSTS

    As the Millennium Project gets finished, do you anticipate 
additional operations and maintenance costs? How are you 
planning on absorbing it? What do they look like?
    Ms. Durham-Aguilera. Yes, we do, because it will be a new 
site, a new active site, so there will be additional 
operational and maintenance costs each and every year as we use 
that site.
    Senator Schatz. Do you have those numbers yet?
    Ms. Kelley. Right now, what we have as an estimate is 
around $200,000 for just our landscaping portion. Until we 
really get into the site and start operating and using it, it 
is going to be hard for us to really reflect an accurate 
number, but we can certainly take that for the record, sir.
    Senator Schatz. Okay.
    [The information follows:]

    The Turf & Grounds contract's additional cost for Millennium is 
$235,000 for fiscal year 18. Immediate operations and maintenance costs 
for cleaning efforts will be $150,000 for a total of $385,000 in fiscal 
year 18. The Tree & Shrub and Landscape and Garden contracts will not 
have costs until fiscal year 19 because there is a year-long warranty 
once the project has been accepted by ANC. Anticipated fiscal year 19 
costs for all three contracts and cleaning efforts is expected to be 
$630,000.

                       ELIGIBILITY DETERMINATIONS

    Senator Schatz. And then my final question is just to 
satisfy my own curiosity. If we were, for whatever set of 
reasons, unable to build more capacity, appropriate for more 
capacity, how does the eligibility determination, how would 
that get reevaluated? Who has the final authority on that?
    Ms. Durham-Aguilera. Senator, it is a dialogue. There are 
legislative authorities and there are authorities that fall 
under the Secretary of Army in coordination with the Secretary 
of Defense.
    We laid out different options and combinations in the 
report. We look forward to the public release of the report by 
Congress, so that we can have that full dialogue with the 
public, Members of Congress, veterans, and military service 
organizations.
    It is a hard topic, but each one of those eligibility 
criteria change can make a difference in extending the active 
life of Arlington National Cemetery.
    Senator Schatz. Thank you.
    Thank you, Mr. Chairman.

                    RECENT REFORMS AND IMPROVEMENTS

    Senator Moran. Let me give you an opportunity. As I said in 
my opening statement, my impression is that good government has 
been taking place here, that things have improved and improved 
significantly, and there is a different attitude and approach 
to what is going on in Arlington National Cemetery.
    Let me have you highlight the things that you think have 
occurred in the recent timeframe that demonstrate that to be 
true.

[[Page 14]]

    Ms. Durham-Aguilera. Thank you, Chairman. We are going to 
tag-team this one.
    So I cannot say enough about what an honor it was to be 
trusted by the Army to be appointed as executive director. I 
have been out here for several years as a volunteer supporting 
veterans groups, but to take on this challenge, it is just 
incredible.
    The team talks about that nearly every day of the week, 
about how honored we are to be able to work here and be able to 
serve veterans and their families.
    When I came here, I was struck by a few things--first, the 
complexity, the immense complexity of what it means for the 
daily life of Arlington National Cemetery. The logistics alone 
to be able to accommodate 30 burial services a day, where each 
and every one of those services, we strive to have the family 
feel special, to have their own honor and dignity without 
distraction from anything else that is going on here, that is 
no small matter.
    And then we have the visitors, 11,000 visitors a day who 
come here to enjoy the rich tapestry and the history.
    Just to do all of that together, along with the 
construction--as we will drive around a little bit this 
afternoon, you will see that we also have construction for new 
improvements, for new parking lots, and for new funeral queuing 
areas, as well as some of the restorations and repairs.
    So to do that in a way that is very high tempo with 
sustained demand takes an incredible, professional work force.
    There have been new measures put into place as well as a 
strategic plan, good data, business practices, metrics, trends 
that we have been tracking now for 3 years, so that we can 
measure how we are doing on a weekly basis, and then the long-
term trends as well.
    So now what I am looking at, I have the fortune to be here 
at this point in time. I also have the fortune to be an 
engineer and having run very big programs, so those skills 
serve me well to look at the future of Arlington National 
Cemetery.
    One of the things I am concerned about as well though is 
the readiness of our people, the readiness of our work force to 
be able to sustain this tempo every day, to take care of 
veterans and their families, to make sure that they have enough 
dwell time, as the Army would say, but also have the right 
training in place to be able to continue this service and the 
professionalism.
    And as we talked about earlier, there is resourcing, our 
resourcing and readiness requirements, and that is to continue 
to absorb the requirements of the day with new requirements 
that have come up, especially in the last few years. After the 
end of this year, we will not have that ability to continue to 
absorb additional requirements.
    Then there is the future of Arlington. Making the Southern 
Expansion happen is something we very much want to achieve, so 
we are able to at least extend the life of the cemetery as an 
active burial place until the 2050s. But if the Nation wants to 
extend it beyond that, then there will be other discussions 
about further expansions around our borders but also changes in 
eligibility.
    As far as being able to sustain these improvements that 
have been made, I am going to ask Ms. Kelley to add to this.

[[Page 15]]

    Ms. Kelley. I think technology is probably the most 
significant change that we have made, but it is not the only 
change.
    In 2010, this organization was managing itself with 3 x 5 
index cards and paper maps. Today, we geospatially map every 
single gravesite. We have digital records that actually 
substantiate the burials. Years ago, you could not support that 
with any meaningful records.
    We also have made changes to our operational footprint, 
such as finding the right type of physical equipment to operate 
out in the cemetery, things that do not tear up the lawn, and 
make sure that the grave is actually treated with care.
    And in lightening up the footprint, we been able to do 
things that we can then sustain ourselves in a more effective 
way.
    So we have made some of those specific technology and 
equipment choices, but coupled with that, we have the resources 
available to create the training modules and create the 
database that never existed before that allows a new employee 
to come in and hit the ground running and understand the 
business, and then transfer that knowledge to that next 
employee. And so that sustainment piece is about training that 
next generation and training that person near and under you so 
that they understand the business as well.
    We really do take pride in feeling that we have taken 
cemetery management to the next level. We are doing things that 
are not done in most other cemeteries, from a business 
perspective.
    And so those things are enabling us to train people so that 
that next person coming in can pick up right where that person 
left off and continue that process and continue to bring it 
forward.
    Senator Moran. Thank you both for being able to give us 
that positive analysis and report.
    Senator Schatz, anything further?
    Anything that either one of you would like to add to make 
sure that we are familiar with?

                          CONCLUDING COMMENTS

    Ms. Durham-Aguilera. Thank you, Chairman. Just a couple 
other things in this last question.
    Another thing that is very important here is the 
accountability. There were huge problems with accountability in 
the past, so one of the things that we take great pride in and 
also great effort to make sure we sustain it is the chain of 
custody, to make sure we know where every single person is 
buried here at Arlington National Cemetery. So the records are 
clear. The families can find it. We can determine just the 
whole gamut of all the operations here.
    And to be able also to sustain the quality, both quality 
assurance and quality control, everything from the grave 
headstones, the markers themselves. As far as the cultural 
resources, identifying what we need for the historic 
amphitheater, the Memorial Amphitheater, the Tomb of the 
Unknown, President Kennedy's gravesite, and all the other 
historical culture that exists out here.
    And then there is the National Arboretum. You did not ask a 
question on that but we are a National Arboretum. There are 
trees here, some are 150 years old. So if you go around the 
cemetery, you will see little placards on some of these trees. 
They are actually registered.

[[Page 16]]

    So we have a professional horticulturist here on staff, 
just to have the great passion to be able to maintain these 
grounds into the future.
    So this entire complex system is just incredible. It is 
incredible today, but the only way it is going to stay 
incredible is by having all these systems that we mentioned in 
place in a way that we can sustain them.
    Senator Moran. Thank you.
    Anything further, Ms. Kelley?
    Ms. Kelley. Thank you so much, sir. Nothing more.
    Senator Moran. Thank you both. I grew up in a way that I 
learned lots of hymns in my life, and I was honored to attend 
President Reagan's memorial services at the National Cathedral, 
and there was a hymn song, and I have used that hymn in many 
settings across Kansas and cemeteries and burials of soldiers 
and veterans, and I never thought I would have the opportunity 
to put into the record the words of that hymn, but I think 
Arlington is so appropriate.
    ``To fallen soldiers let us sing, where no rockets fly nor 
bullets wing. Our broken brothers let us bring to the mansions 
of the Lord.
    ``No more bleeding, no more fight, no prayers pleading 
through the night, just divine embrace, eternal light in the 
mansions of the Lord.
    ``Where no mothers cry and no children weep, we will stand 
and guard though angels sleep.
    ``Through the ages, safely keep the mansions of the Lord.''
    It is an honor to be here at a mansion of the Lord, and 
thank you for being the caretakers.
    Ms. Durham-Aguilera. Thank you.
    Ms. Kelley. Thank you.
    Senator Moran. Again, we thank you for your testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will ask members of our subcommittee, if they have any 
questions for you, to submit those for the record and turn it 
into the subcommittee staff no later than Wednesday, April 5th, 
and then we would appreciate a response from you shortly 
thereafter.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator John Boozman
    Question. Cybersecurity is a growing area of concern across all 
facets of government. In 2015 we witnessed a large agency compromise of 
personally identifiable information belonging to Federal government 
employees and their family members through data breaches attributed to 
outdated systems, the absence of mechanisms to detect outside 
intrusion, and lack of proper encryption. With a repeated capping of 
Operations and Maintenance funding at fiscal year 2011 levels, 
Arlington National Cemetery has had to deal with competing sustainment, 
equipment, and technology priorities.
    Please describe what steps are being taken to upgrade and protect 
security cameras and systems to ensure they are not compromised by 
nefarious actors as well as any associated costs.
    Answer. Arlington National Cemetery (ANC) maintains a protected 
network known as the Cemetery Support Network (CSN). The CSN brings 
multiple disparate cemetery activities under one centrally managed and 
hardened network. The new Closed-circuit television (CCTV) architecture 
will utilize the CSN for data transport through a separated virtual 
logical area network (VLAN). The security cameras will use the CSN 
fiber optic backbone and the switches will be configured/secured by 
Defense Information Systems Agency (DISA) Security Technical 
Implementation Guidelines (STIGs). ANC currently has an Authority to 
Operate (ATO) under the DOD Information Assurance Certification and 
Accreditation Process (DIACAP) framework. ANC has contracted through US 
Army Corps of Engineers to provide expertise to update the 
accreditation through the Risk Management Framework (RMF), as 
prescribed by the Department of Defense. The one-time ANC contract for 
accreditation support to RMF is $300,000.
    ANC has partnered with the Army Research Laboratory (ARL) to 
provide Computer Network Defense Services to `continuously monitor' and 
defend the CSN, and activities riding the CSN, from cyber-attack. 
Through ARL, ANC's CSN network will be monitored by DISA's Host Based 
Security System (HBSS). HBSS is a collection of tools including: Host 
Intrusion Protections (HIPs), asset baseline monitor, rogue system 
detection, and Security Content Automation Protocol (SCAP) policy 
auditor. HBSS provides detailed reporting capabilities, real-time asset 
status, central configuration management, and defense- in-depth-
protection of the latest cyber threats. ANC installed an intrusion 
detection system (IDS) on the CSN called Interrogator IDS. Interrogator 
IDS was developed by ARL to monitor the network for malicious activity. 
Yearly expense for the ARL Computer Network Defense Support is 
$144,000.
      
    Question. Please explain how databases containing personally 
identifiable information are being monitored and secured.
    Answer. ANC has ensured all the proper DOD security steps to 
protect the ANC Interment Services System (ISS), which includes 
interment records dating back to the 1850's. Our ISS databases are 
located within an authorized Army Data Center where the hardware, 
software and databases meet DISA STIG requirements. The ISS application 
is only accessible via Common Access Card (CAC) which is then further 
secured by user defined roles/permissions. Network connections are 
monitored and controlled by the United States Army Network Enterprise 
Technology Command (NETCOM) at all times. NETCOM utilizes HBSS, as 
described in 1A, for its continuous monitoring solution. In addition to 
HBSS further scans are completed on the server architecture such as: 
DISA's Assured Compliance Assessment Solution (ACAS) which scans for 
device and network vulnerabilities, and Fortify which performs a 
security analysis on the static application code of ISS. ISS has full 
weekly backups as-well-as daily incremental backups. Weekly backups are 
stored via tape and hosted locally for 4 weeks, after 4 weeks they are 
transported to a storage location for a period of 6 months.
      
    Question. The report to Congress entitled ``The Future of Arlington 
National Cemetery: Report on the Cemetery's Interment and Inurnment 
Capacity 2017'' provides several courses of action for addressing 
future capacity concerns. However, disinterment procedures are not 
addressed within the report although they are mentioned on the 
Arlington National Cemetery website. The current disinterment process 
requires various levels of approval and notarized paperwork from 
surviving family members.
    How many disinterment requests have been received by Arlington 
National Cemetery each year for the last 20 years? How many of these 
disinterment requests have been approved over the last 20 years?
    Answer. ANC did not track requests for disinterment until 2010, 
however the cemetery has tracked all completed disinterments for the 20 
year period as defined in the question. Available records indicate from 
January 1, 1997 to present, there were 63 disinterments of remains 
removed from ANC and 71 disinterment relocations within ANC.
      
    Question. Is it possible that families are dissuaded from 
requesting disinterment of their loved ones due to an overly 
complicated and arduous process?
    Answer. Disinterment is a legal action and therefore the 
requirements are defined in Title 10 USC Part 553. While 
administratively burdensome, the defined process provides the 
opportunity for all parties with legal standing to have notice and the 
opportunity to object to the proposed movement of their loved one. The 
prescribed process mitigates the risk to Army and tax payer funds from 
litigation if the deceased was removed without notice to a family 
member.
      
    Question. Would disinterment be a viable option to consider when 
addressing future capacity concerns at the cemetery?
    Answer. Disinterment requests generally are received by ANC when a 
family situation unexpectedly and substantially changes. Because of 
this unpredictability and historical low volume of requests, it appears 
that disinterments are not a viable solution to address capacity 
issues. The Army generally considers all burials final unless a close 
living relative requests to disinter their loved one, at their own 
expense, and meets the legal requirements of the Title 10 USC Part 553.

                           SUBCOMMITEE RECESS

    Senator Moran. And this part of the hearing, I will soon 
adjourn, and we look forward to seeing with our own eyes and 
experience the Arlington National Cemetery for our benefit and 
education.
    Thank you very much.
    [Whereupon, at 2:38 p.m., Wednesday, March 29, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
